1a
APPENDIX A
________________________________
UNITED STATES COURT OF APPEALS
FOR THE FIRST CIRCUIT
________________________________
No. 17-1106
UNITED STATES OF AMERICA; STATE OF
CALIFORNIA; STATE OF COLORADO; STATE OF
CONNECTICUT; STATE OF DELAWARE;
DISTRICT OF COLUMBIA; STATE OF FLORIDA;
STATE OF GEORGIA; STATE OF HAWAII; STATE
OF ILLINOIS; STATE OF INDIANA; STATE OF
IOWA; STATE OF LOUISIANA; STATE OF
MARYLAND; COMMONWEALTH OF
MASSACHUSETTS; STATE OF MICHIGAN; STATE
OF MONTANA; STATE OF NEVADA; STATE OF
NEW JERSEY; STATE OF NEW MEXICO; STATE
OF NEW YORK; STATE OF NORTH CAROLINA;
STATE OF OKLAHOMA; STATE OF RHODE
ISLAND; STATE OF TENNESSEE; STATE OF
TEXAS; COMMONWEALTH OF VIRGINIA; and
STATE OF WISCONSIN, ex rel. MARK MCGUIRE,
WENDY JOHNSON, and RYAN UEHLING,
Plaintiffs,
v.
MILLENNIUM LABORATORIES, INC.,
MILLENNIUM LABORATORIES OF CALIFORNIA,
INC.; JAMES SLATTERY; HOWARD APPEL,
Defendants.
________________________________

2a
MARK MCGUIRE,
Cross-Claimant, Appellant,
ESTATE OF ROBERT CUNNINGHAM; RYAN
UEHLING; OMNI HEALTHCARE INC.; AMADEO
PESCE; JOHN DOE a/k/a CRAIG DELIGDISH,
Cross-Defendants, Appellees.
________________________________
May 6, 2019
________________________________
APPEAL FROM THE UNITED STATES DISTRICT
COURT FOR THE DISTRICT OF
MASSACHUSETTS
[Hon. Nathaniel M. Gorton, U.S. District Judge]
________________________________
Before
Torruella, Lynch, and Thompson, Circuit Judges.
LYNCH, Circuit Judge. The False Claims Act
(FCA), 31 U.S.C. § 3729 et seq., authorizes private persons, known as relators, to “bring a civil action . . . in
the name of the Government” against those who make
fraudulent claims against the United States, id.
§ 3730(b)(1). When a relator brings such a qui tam
suit, the government may intervene and proceed with
the action, or it may decline to intervene and allow the
relator to proceed. See id. § 3730(b)(1)-(4), (c).
The FCA encourages relators to bring qui tam
suits by allowing them to share in any recovery obtained for the government. To avoid diluting this potential payout, the FCA’s first-to-file rule prohibits relators other than the first to file from “bring[ing] a

3a
related action based on the facts underlying the pending action.” Id. § 3730(b)(5).
This case arises out of the government’s successful
intervention in several qui tam suits against Millennium Health (formerly Millennium Laboratories). Millennium settled with the government for $227 million,
setting aside fifteen percent of that money as a relator’s share. The question on appeal is who is the firstto-file relator and how that is determined.
Mark McGuire brought a crossclaim for declaratory judgment that he is the first to file and is entitled,
under 31 U.S.C. § 3730(d)(1), to the fifteen-percent
share. Robert Cunningham, who had brought an earlier qui tam suit against Millennium, moved to dismiss
the crossclaim, arguing that he, not McGuire, was the
first to file. Finding that the first-to-file rule was jurisdictional, and based on its review of extrinsic materials outside of the complaints, the district court agreed
with Cunningham. United States ex rel. Cunningham
v. Millennium Labs., Inc., 202 F. Supp. 3d 198, 209
(D. Mass. 2016). The district court dismissed
McGuire’s crossclaim for lack of subject-matter jurisdiction. Id.
We hold, for the first time in this circuit, that the
first-to-file rule is not jurisdictional, reversing earlier
circuit precedent, and we hold that we have jurisdiction over McGuire’s crossclaim. We then describe the
appropriate method for the first-to-file analysis and
hold that McGuire was the first-to-file relator and that
he has stated a claim that he is entitled to the relator’s
share of the settlement. We reverse and remand for
further proceedings consistent with this opinion.

4a
I.
A. The False Claims Act
President Abraham Lincoln signed the FCA into
law in 1863. It was originally intended “to combat rampant fraud in Civil War defense contracts.” S. Rep. No.
99-345, at 8 (1986). Today, the FCA is the federal government’s “primary litigative tool for combatting
fraud.” Id. at 2.
The FCA imposes liability on any person who
“knowingly presents . . . a false or fraudulent claim for
payment or approval,” 31 U.S.C. § 3729(a)(1)(A), “to an
officer, employee, or agent of the United States,” id.
§ 3729(b)(2)(A)(i). A relator may enforce the FCA by
bringing a civil qui tam action “in the name of the Government.” Id. § 3730(b).
To bring such an action, the relator must file a
complaint under seal and must serve the United
States with a copy of the complaint and a disclosure of
all material evidence. Id. § 3730(b)(2). After reviewing
those materials, the United States may “proceed with
the action, in which case the action shall be conducted
by the Government.” Id. § 3730(b)(4). Or, “[i]f the government does not exercise its right to intervene in the
suit, the relator may serve the complaint upon the defendant and proceed with the action.” United States ex
rel. Karvelas v. Melrose-Wakefield Hosp., 360 F.3d 220,
225 (1st Cir. 2004), abrogated on other grounds by Allison Engine Co. v. United States ex rel. Sanders, 553
U.S. 662 (2008).
The FCA entitles the relator to a portion of any
resulting judgment or settlement. Before the 1986
amendments to the FCA, the relator’s share in a case
in which the government had intervened was capped

5a
at “10 percent of the proceeds of the action or settlement of the claim.” S. Rep. No. 99-345, at 41. The FCA
now mandates a relator award in such a case of “at
least 15 percent but not more than 25 percent of the
proceeds of the action or settlement of the claim, depending upon the extent to which the person substantially contributed to the prosecution of the action.”1 31
U.S.C. § 3730(d)(1).
The 1986 amendments also added a significant restriction on recoveries in qui tam suits that is relevant
here: the “first-to-file” rule in paragraph 3730(b)(5).
That paragraph provides, “When a person brings an
action under [31 U.S.C. § 3730(b)], no person other
than the Government may intervene or bring a related
action based on the facts underlying the pending action.” Id. § 3730(b)(5). Legislative history shows that
this rule was meant to “clarify in the statute that private enforcement under the civil False Claims Act is
not meant to produce class actions or multiple separate suits based on identical facts and circumstances.”
S. Rep. No. 99-345, at 25.
B. The Complaints
Because we hold that the first-to-file issue is to be
addressed under Federal Rule of Civil Procedure
12(b)(6), not Rule 12(b)(1), we confine our review to the
pleadings and to facts subject to judicial notice. Haley
v. City of Bos., 657 F.3d 39, 46 (1st Cir. 2011). We limit

1

When the government declines to intervene and the relator
successfully prosecutes the action, the relator may receive up to
30 percent of the payout (with the remainder to the United
States). 31 U.S.C. § 3730(d)(2). That is not the situation here.

6a
our background discussion to facts alleged in Cunningham’s amended complaint, McGuire’s original complaint, and in the government’s complaint in intervention and settlement agreement.2
1.

Cunningham’s Amended Complaint

In late 2009 and early 2010, relator Robert Cunningham3 filed qui tam actions against five competitors of Calloway Laboratories, his employer. One competitor he sued was Millennium.
Cunningham filed his first amended complaint4
against Millennium on February 24, 2011. It detailed
a mechanism of fraud arising from Millennium’s “Physician Billing Model,” the key component of which was
Millennium’s “multi-class qualitative drug screen,”
which Cunningham’s complaint labels a “test kit.” The
test kit was a urine specimen collection cup with chemical test strips embedded in it. This kit, which “c[ould]
2

Cunningham’s amended complaint and McGuire’s original
complaint are subject to judicial notice. See Zucker v. Rodriguez,
919 F.3d 649, 651 n.5 (1st Cir. 2019) (citing E.I. Du Pont de
Nemours & Co. v. Cullen, 791 F.2d 5, 7 (1st Cir. 1986) (Breyer,
J.)). And the government’s complaint in intervention and settlement agreement are also properly before us because McGuire attached them as exhibits to his crossclaim.
3

Cunningham died in December 2010. His estate has continued to pursue his action. For simplicity, we refer to Cunningham
and his estate as “Cunningham.”
4

Cunningham’s amended complaint states, “This First
Amended Complaint does not add any facts to those contained in
the Original Complaint; rather, it removes some of the allegations that had been contained therein.” The amended complaint’s
allegations were the only allegations “pending” when McGuire
filed his suit.

7a
be purchased for less than” ten dollars, “use[d] a single
specimen” collected at the point of care to detect “multiple drug classes.”
We described the three aspects of Cunningham’s
allegations in United States ex rel. Estate of Cunningham v. Millennium Labs. of Calif., Inc., 713 F.3d 662,
665-66 (1st Cir. 2013). Cunningham’s complaint alleged that Millennium used its inexpensive point-ofcare test kits to induce physicians into excessive billing (Aspect One), excessive testing (Aspect Two), and
excessive confirmatory testing (Aspect Three).5 In
5

We describe the first two aspects more fully. Aspect One:
Cunningham alleged that Millennium told physicians that this
test kit could “substantially increase his or her revenue.” Because
the kits performed several tests at once, Millennium told the physicians that they could “bill both government and private health
insurance companies” for several drugs tests per kit. Under thencurrent government billing codes, the physicians should have
only billed for one test per test kit. Cunningham alleged that a
document distributed by Millennium “suggest[ed] each physician
can bill at least 9 units per kit.” And Cunningham alleged that
Millennium separately informed physicians that they should bill
“as many units as there are panels in the test kit.” Cunningham
alleged that, under this model, physicians could bill between
$16.67 and $80 per unit and so extract per-kit revenues of between $173.18 to $432.
Aspect Two: Cunningham alleged that Millennium encouraged
physicians to conduct excessive tests. Millennium informed physicians that, if they were to order twenty tests per day, they could
earn up to $8,640 per day. The complaint stated that Millennium
thus “encourage[d] the physician to order more testing than that
physician would have prior to engaging in Millennium’s [point-ofcare] model, and increase[d] Millennium’s market share by drawing other physicians to the practice with the hope and promise of
greater revenues.” It further alleged that participating physicians ordered “significantly more testing for their patients since

8a
Cunningham, we held that Aspects One and Three
were jurisdictionally barred by the FCA’s public disclosure provision, 31 U.S.C. § 3730(e)(4)(A), because
they had been “publicly disclosed” in a California state
defamation suit brought by Millennium against Calloway. 713 F.3d at 671. We then vacated the district
court’s order dismissing Aspect Two of Cunningham’s
claim and remanded that claim for further proceedings. Id. at 676. On remand, the district court dismissed Aspect Two of Cunningham’s claim for lack of
particularity under Federal Rule of Civil Procedure
9(b) and for failure to state a claim under Rule
12(b)(6). United States ex rel. Estate of Cunningham v.
Millennium Labs. of Cal., No. 09-12209-RWZ, 2014
WL 309374, at *2 (D. Mass. Jan. 27, 2014). That decision is currently on appeal.
Only Aspect Three is potentially relevant to the
first-to-file issue here.6 Cunningham alleged that if the
initial qualitative test uncovered any of the tested
drugs, that test “w[ould] need to be followed up by a
quantitative screen” and then “confirmed by another
method.” The complaint alleges that Millennium’s

entering the conspiracy than they did prior to participating in the
conspiracy with Millennium.” The alleged fraud consisted of Millennium’s promotion of this billing model and physician defendants’ misrepresentation of the medical need for the tests performed.
6

McGuire argues, based on Campbell v. Redding Medical
Center, 421 F.3d 817 (9th Cir. 2005), that because we found Aspect Three to be jurisdictionally barred, it does not count as a
“pending” claim for first-to-file purposes. We do not address this
argument because we find McGuire was the first-to-file relator
even if we consider Aspect Three of Cunningham’s complaint.

9a
point-of-care model led to “significantly more testing,”
including “confirmatory tests.”
Cunningham alleged generally that this scheme
“increas[ed] the revenues of the [physician] defendants at the expense of the government and private
health insurance programs” and “significantly increase[d] Millennium’s revenues and market share.”
Cunningham’s amended complaint never mentions
the terms “custom profiles” or “standing orders” or describes any fraudulent schemes by Millennium associated with either.
Cunningham filed three disclosures of material
evidence to the government in December 2009, September 2010, and February 2012, respectively.
2.

McGuire’s Original Complaint

Mark McGuire, appellant here, filed his original
qui tam complaint on January 26, 2012. It focused not
on point-of-care testing, the first stage of urinary drug
testing, as Cunningham’s complaint had done, but on
confirmatory (or quantitative) testing, a later stage.
McGuire alleged that after a point-of-care test discloses an unexpected drug (or shows the lack of an expected drug), a physician can order confirmatory tests.
These tests, which require sophisticated equipment
and so can be expensive, determine how much of the
substance is present (or not).
McGuire alleged that Millennium engaged in a
scheme that resulted in unnecessary confirmatory
tests being performed and billed to the government after the point-of-care tests. Millennium persuaded physicians to execute “custom profiles,” which are standing orders for a battery of confirmatory tests on every
urine sample, regardless of whether the point-of-care

10a
testing showed a need. McGuire alleged that “even if
[a point-of-care test] comes back completely negative,
. . . based on the customized profile Millennium has
gotten the physician’s office to sign, Millennium runs
10 confirmatory tests.” Millennium profited because
“[t]hese 10 unnecessary tests are then billed to Medicare, Medicaid or other federal plans.” And physicians
and hospitals who signed up for “custom profiles” profited because they could bill the government for the unnecessary tests.
This scheme was, according to McGuire’s complaint, a matter of corporate policy. McGuire alleged
that Millennium supervisors required their sales representatives to aggressively market standing orders to
physicians—the representatives would return time
and time again until the physicians executed custom
profiles for at least ten confirmatory tests. Some physicians, with Millennium’s participation, included up
to twenty-five tests in their profiles.
McGuire also alleged that Millennium provided
free point-of-care cups (test kits) to physicians to induce them to send confirmation testing orders to Millennium. This tactic helped Millennium gain market
share in a highly competitive and potentially quite lucrative business.
3.

The Complaint and Settlement Agreement of
the United States

In December 2014, the government announced its
intention to intervene in McGuire’s action (as well as
the actions of three other relators, none of whom were
Cunningham). It filed its complaint in intervention in
those actions on March 19, 2015. The complaint describes two fraudulent schemes: (1) Millennium’s

11a
submission of claims for excessive and unnecessary
urine drug testing ordered by physicians through
standing orders without an individualized assessment
of patient need; and (2) urine drug testing referred by
physicians who received free point-of-care testing supplies, in violation of the Stark Act and the Anti-Kickback Statute. Millennium used these schemes to
“knowingly submit[] many millions of dollars’ worth of
false claims” to the government.
The United States complaint in intervention alleges that “[a] core element of Millennium’s business
model was the use of physician standing order forms.”
These standing orders led to unnecessary drug tests
conducted “regardless of each patient’s individualized
need and condition.” Millennium required physicians
to use these forms or be cut off from processing specimens, set and enforced testing thresholds for standing
orders, and promoted routine confirmatory testing of
even negative point-of-care test results. This standing
order practice generated unnecessary testing, including confirmatory testing for rarely abused drugs, even
when point-of-care test results showed no need for follow-up testing.
The government’s complaint also alleged that Millennium engaged in an illegal kickback scheme involving point-of-care cups. After the Center for Medicare
and Medicaid Services (CMS) changed the reimbursement structure for point-of-care cups effective April
2010, “the [point-of-care] test cups were no longer a
source of significant reimbursement revenue for physicians.” In response, Millennium “dramatically” expanded its “Free Cup program.” Under this program,
Millennium distributed $5 million worth of point-ofcare test cups for free to physicians in exchange for

12a
“referrals” to Millennium. A physician “refers” a test
by sending a sample for confirmatory testing. The government alleged that this program violated the Stark
Law and the Anti-Kickback Statute, which require
point-of-care test cups to be sold at fair market value.
On October 16, 2015, the government and Millennium reached a settlement under which Millennium
agreed to pay $227 million plus interest to resolve
these claims. The settlement set aside fifteen percent
of the recovery as a relator’s share, but did not resolve
which relator was entitled to the award.7 The agreement provided that the district court “shall retain jurisdiction as to . . . [r]elators’ claims for a share of the
proceeds of the Settlement Amount.” The district court
dismissed only the relators’ claims against Millennium on March 24, 2016 and stated that the “[r]elators’ respective claims, between and among themselves, for a portion of the agreed-upon ‘relator share’
of the Settlement Amount . . . are not dismissed and
will remain pending.”
C. Post-Settlement Procedural History
On October 23, 2015, McGuire filed a crossclaim
for declaratory relief, asserting that he was the first to
file a complaint that alleged the essential facts underlying the government’s complaint in intervention and
settlement agreement. He argued that he was entitled
to the entire fifteen-percent relator’s share because he

7

The settlement also preserved the relators’ rights to seek
reasonable costs and attorney’s fees and expenses under 31
U.S.C. § 3730(d)(2) and preserved some relators’ employment-retaliation claims.

13a
was the first-to-file relator.8 On December 7, 2015,
Cunningham moved to dismiss McGuire’s crossclaim,
arguing that he, not McGuire, was the first to file.
The government took no position on this issue. It
did, however, urge the district court to confine its firstto-file analysis to “the text of the complaints themselves, and not on any subsequent investigation by the
United States of such complaints or any related communications.”
On August 19, 2016, the district issued its order
dismissing McGuire’s crossclaim. Cunningham, 202
F. Supp. 3d at 209. The district court held, relying on
this circuit’s precedent, that the first-to-file rule was
jurisdictional and that Cunningham’s motion to dismiss was a factual challenge to the court’s jurisdiction.
Id. at 205-06. The district court looked beyond the
complaints to extrinsic evidence and concluded that
the first-to-file rule applied and barred McGuire’s
crossclaim. Id. at 206. The district court dismissed the
crossclaim for lack of subject-matter jurisdiction. Id.
at 209. The order entered on the docket three days
later, on August 22, 2016.9

8
McGuire brought this crossclaim against Cunningham and
several other relators but not against Wendy Johnson, Allstate
Insurance Co., and Lawrence Spitz—McGuire reports that he
“reached an agreement” with this last group. The cross-defendants other than Cunningham have conceded that they filed behind McGuire.
9

There was no “separate document,” Fed. R. Civ. P.
58(c)(2)(A), accompanying that order, so judgment entered 150
days later, on January 19, 2017. McGuire had 30 days from then
to file his notice of appeal. McGuire’s January 20, 2017 filing was
timely. Cunningham’s arguments to the contrary are meritless.

14a
McGuire moved for reconsideration of the order
dismissing his crossclaim. The district court denied
that motion. This appeal followed.
II.
A federal appellate court normally must “satisfy
itself both of its own subject-matter jurisdiction and of
the subject-matter jurisdiction of the trial court before
proceeding further.” Royal Siam Corp. v. Chertoff, 484
F.3d 139, 143 (1st Cir. 2007) (citing Bender v. Williamsport Area Sch. Dist., 475 U.S. 534, 541 (1986); Irving v. United States, 162 F.3d 154, 160 (1st Cir. 1998)
(en banc)). We consider whether the first-to-file rule is
jurisdictional under the Supreme Court’s most recent
caselaw. On de novo review, and in light of that precedent, we hold that the first-to-file rule, 31 U.S.C.
§ 3730(b)(5), is nonjurisdictional and that we have jurisdiction over McGuire’s crossclaim.10
“Characterizing a rule as jurisdictional renders it
unique in our adversarial system.” Sebelius v. Auburn
Reg’l Med. Ctr., 568 U.S. 145, 153 (2013). A jurisdictional objection may be raised at any time, even after
trial. And a trial court without jurisdiction lacks “all

10

McGuire argues that the district court erred in holding that
his crossclaim for declaratory judgment under paragraph
3730(d)(1) is subject to the first-to-file rule. Cunningham, 202
F. Supp. 3d at 203. We need not reach this argument because
even if the first-to-file rule does not apply to McGuire’s crossclaim, it applies to his underlying action against Millennium. And
because that action eventually gave rise to McGuire’s crossclaim,
we must assure ourselves of the district court’s jurisdiction.

15a
authority to hear a case.”11 United States v. Kwai Fun
Wong, 135 S. Ct. 1625, 1631 (2015).
The Supreme Court has attempted to “ward off
profligate use of the term ‘jurisdiction.’” Auburn Reg’l
Med. Ctr., 568 U.S. at 153. As such, it has held that we
must apply a “readily administrable bright line” rule
and see if Congress has “clearly state[d]” that the provision under review is jurisdictional. Arbaugh v. Y&H
Corp., 546 U.S. 500, 515 (2006).
In considering this issue, we do not write on a
clean slate. As the district court quite properly noted,
this court has several times characterized the first-tofile rule as jurisdictional. See United States ex rel. Wilson v. Bristol-Myers Squibb, Inc., 750 F.3d 111, 117
(1st Cir. 2014); United States ex rel. Heineman-Guta v.
Guidant Corp., 718 F.3d 28, 34 (1st Cir. 2013); United
States ex rel. Duxbury v. Ortho Biotech Prods., L.P.,
579 F.3d 13, 16, 33 (1st Cir. 2009).
While we are “ordinarily ‘constrained by prior
panel decisions directly (or even closely) on point,’” we
are not so bound when “non-controlling authority that
postdates the decision . . . offer[s] ‘a compelling reason
for believing that the former panel, in light of new developments, would change its collective mind.”
Sánchez ex rel. D.R.-S. v. United States, 671 F.3d 86,
96 (1st Cir. 2012) (quoting United States v. Guzmán,

11

So even in a case like this one, in which seven years have
passed since McGuire first filed his complaint, a jurisdictional objection may result in dismissal. And that could mean “many
months of work on the part of the attorneys and the court may be
wasted.” Henderson ex rel. Henderson v. Shinseki, 562 U.S. 428,
435 (2011).

16a
419 F.3d 27, 31 (1st Cir. 2005)). There are several compelling reasons for such a belief here.
First, new developments cast serious doubt on our
prior characterization of the first-to-file rule as jurisdictional. In 2015, the Supreme Court decided Kellogg
Brown & Root Services, Inc. v. United States ex rel.
Carter, 135 S. Ct. 1970 (2015), a qui tam case. Carter
“addressed the operation of the first-to-file bar on decidedly nonjurisdictional terms, raising the issue after
it decided a nonjurisdictional statute of limitations issue.” United States ex rel. Heath v. AT & T, Inc., 791
F.3d 112, 121 n.4 (D.C. Cir. 2015). The clear implication is that the Court did not consider the first-to-file
rule to be jurisdictional. Interpreting Carter, the D.C.
Circuit and the Second Circuit have both held that the
first-to-file rule is nonjurisdictional.12 See United
States ex rel. Hayes v. Allstate Ins. Co., 853 F.3d 80, 85
(2d Cir. 2017); Heath, 791 F.3d at 120-21.
This court has twice declined to reach the issue of
whether the first-to-file rule is jurisdictional when it
was not necessary to resolution of the appeal, while
recognizing that Carter affects the analysis. See
United States ex rel. Kelly v. Novartis Pharm. Corp.,
827 F.3d 5, 12 n.9 (1st Cir. 2016) (“We assume, but
need not decide, that the first-to-file bar remains jurisdictional. This position is not without doubt.”); United
States ex rel. Gadbois v. PharMerica Corp., 809 F.3d 1,
6 n.2 (1st Cir. 2015) (“[W]e have no need to consider

12

The Fourth Circuit has, after Carter, based on circuit precedent, maintained that the first-to-file rule is jurisdictional. See
United States ex rel. Carter v. Halliburton Co., 866 F.3d 199, 203
n.1 (4th Cir. 2017).

17a
the relator’s back-up argument that the first-to-file
bar is not jurisdictional in light of Carter.”).
Second, this circuit’s prior cases labeling the firstto-file rule as jurisdictional, all of which predate
Carter, devoted no substantive analysis to this issue.
Duxbury, the oldest case, listed the first-to-file rule
among the FCA’s “jurisdictional bars” only in passing
as dicta. 579 F.3d at 16. But it did not ask, and no later
First Circuit decision has asked, if Congress clearly
stated that the first-to-file rule was jurisdictional. Because these rulings failed to apply the Arbaugh clearstatement test, they should be “accorded ‘no precedential effect’ on the question whether the federal court
had authority to adjudicate the claim in suit.” Arbaugh, 546 U.S. at 511 (quoting Steel Co. v. Citizens
for a Better Env’t, 523 U.S. 83, 91 (1998)).
And third, applying the bright line rule leads to
only one conclusion: the first-to-file rule is nonjurisdictional. Neither statutory text nor context nor legislative history suggests otherwise. See Kwai Fun Wong,
135 S. Ct. at 1632-33 (looking to text, context, and legislative history to determine whether a statutory provision was jurisdictional).
As always in matters of statutory interpretation,
we start with the text. United States v. Musso, 914
F.3d 26, 30 (1st Cir. 2019). Paragraph 3730(b)(5) provides that “no person other than the Government may
intervene or bring a related action based on the facts
underlying the pending action.” 31 U.S.C. § 3730(b)(5).
As the D.C. Circuit recognized, this “language ‘does
not speak in jurisdictional terms or refer in any way to
the jurisdiction of the district courts.’” Heath, 791 F.3d
at 120 (quoting Arbaugh, 546 U.S. at 515).

18a
We next look to context. Paragraph 3730(b)(5)
does not speak in jurisdictional terms; nearby provisions, by contrast, explicitly do so. Cf. Musso, 914 F.3d
at 31 (drawing a negative inference from word choices
made in neighboring statutory text). For instance, paragraph 3730(e)(1) provides, “No court shall have jurisdiction over an action brought by a former or present
member of the armed forces . . . against a member of
the armed forces arising out of such person’s service in
the armed forces.” 31 U.S.C. § 3730(e)(1). And paragraph 3730(e)(2) states, “No court shall have jurisdiction over an action brought . . . against a Member of
Congress, a member of the judiciary, or a senior executive branch official if the action is based on evidence
or information known to the Government when the action was brought.” Id. § 3730(e)(2). So, as the D.C. Circuit recognized, “[w]hen Congress wanted limitations
on False Claims Act suits to operate with jurisdictional force, it said so explicitly.” Heath, 791 F.3d at
120.
And finally, as a check to confirm the accuracy of
our textual analysis, we turn to legislative history. See
Kwai Fun Wong, 135 S. Ct. at 1633 (“[E]ven assuming
legislative history alone could provide a clear statement (which we doubt), none does so here.”). Congress
added the first-to-file rule when it amended the FCA
in 1986. The Senate Report states that the purpose of
the first-to-file rule was to clarify that “only the Government may intervene in a qui tam action” and that
“private enforcement under the civil False Claims Act
is not meant to produce class actions or multiple separate suits based on identical facts and circumstances.”
S. Rep. No. 99-345, at 25. The first-to-file rule

19a
advances this goal even when the provision is not jurisdictional.
Finding Congress had made no clear statement
that the rule was jurisdictional, the D.C. Circuit held
that “the first-to-file rule bears only on whether a qui
tam plaintiff has properly stated a claim.” Heath, 791
F.3d at 121. The Second Circuit, relying heavily on
Heath, reached the same conclusion. Hayes, 853 F.3d
at 85-86. Given Carter, Heath, Hayes, and the Supreme Court’s clear statement rule, there is a compelling reason to believe that prior panels would no longer
view the first-to-file rule as jurisdictional. For the
same reasons, we now hold that the first-to-file rule is
not jurisdictional.
Because the first-to-file rule is not jurisdictional,
the district court had subject-matter jurisdiction over
McGuire’s claim against Millennium. The district
court also had subject-matter jurisdiction over
McGuire’s crossclaim under 28 U.S.C. §§ 1331 and
2201. And we have jurisdiction under 28 U.S.C.
§ 1291.
III.
The remaining question is whether, under 31
U.S.C. § 3730(d)(1), McGuire is entitled to the relator’s
share of the government’s settlement with Millennium.13 In assessing this question, we confine our

13

The district court purported to deny Cunningham’s 12(b)(6)
motion, but only after granting his 12(b)(1) motion. We have
noted that “if the court lacks subject matter jurisdiction, assessment of the merits becomes a matter of purely academic interest.”
Deniz v. Mun. of Guaynabo, 285 F.3d 142, 150 (1st Cir. 2002).

20a
review to the pleadings and to “facts susceptible to judicial notice.”14 Haley, 657 F.3d at 46.
As we demonstrate below, the crucial component
of this question, as framed in this case, is whether
McGuire was the first-to-file relator. Rather than remand, we address the first-to-file issue as a matter of
law because it has been fully briefed, because neither
party suggests that the issue requires remand, and because the basic facts are uncontested. See G. & C. Merriam Co. v. Webster Dictionary Co., 639 F.2d 29, 40 (1st
Cir. 1980); see also Levy v. Lexington Cty., S.C., 589
F.3d 708, 716 (4th Cir. 2009); LNC Invs., Inc. v. First
Fid. Bank, N.A. N.J., 173 F.3d 454, 464 (2d Cir. 1999).
Subsection 3730(d), entitled “Award to qui tam
plaintiff,” provides in relevant part:
If the Government proceeds with an action
brought by a person under subsection (b),
such person shall, subject to the second sentence of this paragraph, receive at least 15
percent but not more than 25 percent of the
proceeds of the action or settlement of the
claim, depending upon the extent to which the
person substantially contributed to the prosecution of the action.
31 U.S.C. § 3730(d)(1). We look to whether the government’s recovery from Millennium constitutes the
Deciding a Rule 12(b)(6) motion after finding no subject-matter
jurisdiction is “gratuitous.” Id. at 149.
14

The district court analyzed Cunningham’s motion to dismiss
as a factual challenge under Rule 12(b)(1) and so engaged its
“broad authority” to look outside the pleadings “to determine its
own jurisdiction.” Valentin v. Hosp. Bella Vista, 254 F.3d 358, 363
(1st Cir. 2001).

21a
“proceeds of the . . . settlement of the claim” McGuire
brought. See Rille v. PricewaterhouseCoopers LLP, 803
F.3d 368, 373 (8th Cir. 2015) (en banc) (“[A] relator
seeking recovery must establish that ‘there exists [an]
overlap between Relator’s allegations and the conduct
discussed in the settlement agreement.’” (quoting
United States ex rel. Bledsoe v. Cmty. Health Sys., Inc.,
342 F.3d 634, 651 (6th Cir. 2003))).
To be entitled to the relator’s share under paragraph 3730(d)(1), a relator must be a person who
“br[ings]” “an action under . . . subsection [3730(b)].”
31 U.S.C. § 3730(d)(1); Rille, 803 F.3d at 372 (“The relators’ right to recovery is limited to a share of the settlement of the claim that they brought.”). The first-tofile rule bars any “person other than the Government”
from “bring[ing] a related action based on the facts underlying the pending action.” 31 U.S.C. § 3730(b)(5).
So only the first-to-file relator can claim the relator’s
share of the settlement proceedings for each claim.
Nearly all courts share this conclusion. See United
States ex rel. Shea v. Cellco P’ship, 863 F.3d 923, 927
(D.C. Cir. 2017) (“The first-to-file bar thereby ensures
only one relator will share in the government’s recovery . . . .”); United States ex rel. LaCorte v. SmithKline
Beecham Clinical Labs., Inc., 149 F.3d 227, 231 (3d
Cir. 1998) (“[N]o qui tam plaintiff may . . . share in a
government settlement if his or her allegations repeat
claims in a previously filed action.”); see also United
States ex rel. Merena v. SmithKline Beecham Corp.,
205 F.3d 97, 103-06 (3d Cir. 2000) (Alito, J.) (concluding “that a relator whose claim is subject to dismissal
under [the public-disclosure rule in 31 U.S.C.
§] 3730(e)(4) may not receive any share of the proceeds
attributable to that claim,” id. at 106); Fed. Recovery

22a
Servs., Inc. v. United States, 72 F.3d 447, 450 (5th Cir.
1995).15
This conclusion also aligns with the policies underlying the first-to-file rule. The rule is “part of the
larger balancing act of the FCA’s qui tam provision,
which ‘attempts to reconcile two conflicting goals, specifically, preventing opportunistic suits, on the one
hand, while encouraging citizens to act as whistleblowers, on the other.’” Wilson, 750 F.3d at 117 (quoting LaCorte, 149 F.3d at 233). “The first-to-file bar operates on the recognition that, because relators can
bring suit without having suffered a personal injury,
countless plaintiffs in theory could file a qui tam action
based on the same fraud and then share in the proceeds.” Shea, 863 F.3d at 927. Allowing a follow-on
filer to siphon off the first-filed suit’s proceeds
“weaken[s] the incentive to dig out the facts and
launch the initial action.” United States ex rel. Chovanec v. Apria Healthcare Grp. Inc., 606 F.3d 361, 364
(7th Cir. 2010).
To resolve the first-to-file issue here, we ask
whether Cunningham’s amended complaint “contained ‘all the essential facts’” of the fraud McGuire
alleged.16 United States ex rel. Ven-A-Care of the Fla.
15

See also United States ex rel. Dhillon v. Endo Pharm., 617
F. App’x 208 (3d Cir. 2015) (unpublished) (summarily affirming
the district court’s finding that only the first-to-file relator was
entitled to the relator’s share of a settlement). But see United
States ex rel. Doghramji v. Cmty. Health Sys., Inc., 666 F. App’x
410, 418 (6th Cir. 2016) (rejecting this conclusion).
16

Other circuits, such as the D.C. Circuit, preclude recovery
from not-first-to-file relators when the first-filed complaint alleges the “material elements of fraud” at issue and “equip[s] the

23a
Keys, Inc. v. Baxter Healthcare Corp., 772 F.3d 932,
938 (1st Cir. 2014) (quoting Heineman-Guta, 718 F.3d
at 34). While this “essential facts” standard does not
require “identity between the two complaints to trigger the first-to-file rule,” id., the rule still may bar a
different “claim even if that claim incorporates somewhat different details,” id. (quoting Wilson, 750 F.3d
at 118). The essential facts test “presents a question of
law about the statutorily required threshold for notifying the government of the fraud alleged in the laterfiled suit.” Id. Our review is de novo.17 Id.
We apply the essential facts test by comparing
Cunningham’s amended complaint and McGuire’s
original complaint. See Heath, 791 F.3d at 121 (“Similarity is assessed by comparing the complaints sideby-side . . . .”); Ven-A-Care, 772 F.3d at 938 (“[W]e compare the Ven-A-Care complaint to the Sun and Hamilton complaint.”); In re Nat. Gas Royalties Qui Tam
Litig. (CO2 Appeals), 566 F.3d 956, 964 (10th Cir.
2009) (“The first-to-file bar is designed to be quickly
and easily determinable, simply requiring a side-byside comparison of the complaints.”). First-to-file

government to investigate” that fraud. United States ex rel. Batiste v. SLM Corp., 659 F.3d 1204, 1209 (D.C. Cir. 2011). For purposes of this case, we see no difference between this standard and
the essential facts test.
17

Cunningham argues that the settlement independently reserved this issue for the district court to resolve as a matter of
fact, and that we must accept the district court’s findings. The
premise is wrong—the settlement says nothing of the sort. It
states only that the district court “retain[ed] jurisdiction” over
this issue, and that the relators “reserve[d] their rights against
Millennium to seek attorneys’ fees, costs and expenses” under applicable provisions. It does not displace normal first-to-file law.

24a
analysis is limited to the four corners of the relevant
complaints. See Duxbury, 579 F.3d at 33-34 (refusing
to consider allegations in a later-filed Information because the relator “had his opportunity to [include
those allegations] when he filed [his] Original Complaint”). We conclude, based on those two complaints,
that Cunningham and McGuire do not allege similar
frauds, but allege different frauds with different mechanisms.
We proceed claim-by-claim. Merena, 205 F.3d at
102 (“[T]he court must conduct a claim-by-claim analysis in order to determine if section 3730(b)(5) applies.”). Two claims of fraud are relevant here: (1) Millennium’s custom profile fraud, and (2) Millennium’s
point-of-care cup kickback scheme. Cunningham’s
complaint lacks all the essential elements of both
claims.
Cunningham argues that he was the first to file a
claim against Millennium for excessive and unnecessary drug testing. But this is too general an argument.
We must look to the actual mechanism (the “essential
facts”) of the fraud that Cunningham alleged. In his
amended complaint, Cunningham alleged that Millennium’s Physician Billing Model, which involved physicians billing the government for multiple tests for each
point-of-care cup, led to “significantly more testing.”
And he alleged that this increased point-of-care testing led, in turn, to more “confirmatory tests.” But CMS
revised its reimbursement rules to defeat such fraud,
so physicians can no longer bill for multiple tests from
a single cup. And Cunningham’s amended complaint
never mentions “standing orders” or “custom profiles,”
as McGuire’s does.

25a
Cunningham’s allegations do not cover the essential elements of the fraud that McGuire described in
his original complaint. McGuire alleged that Millennium required physicians to execute custom profiles.
And McGuire alleged that these profiles directed Millennium to automatically conduct a battery of confirmatory tests regardless of individual patient need and
regardless of what the point-of-care test showed. The
fraud McGuire alleged had a different mechanism (the
custom profiles) and focused on a different stage of
testing (the confirmatory stage) than the one Cunningham described. McGuire was the first relator to file a
claim including the essential elements of Millennium’s
custom profile fraud, which the government then pursued.
Cunningham also argues that he alleged the essential elements of Millennium’s point-of-care cup
kickback scheme, the second scheme the government
pursued. He says he “alleged Millennium provided test
kits at a nominal cost, and encouraged doctors to bill
for numerous tests rather than for just one multipanel test.” But Cunningham’s amended complaint
makes only one mention of cost: it says that the pointof-care cups “can be purchased for less than $10.00.”
Cunningham did not allege that this was less than fair
market value. And he did not allege that Millennium
provided the cups for free in exchange for physicians
referring confirmatory testing. McGuire, by contrast,
alleged that Millennium provided point-of-care cups,
“a valuable diagnostic tool,” to physicians for free to
induce them to send confirmation testing orders to
Millennium.
Again, Cunningham’s allegations do not include
the essential elements of the fraud McGuire alleged.

26a
Further, the fraud the government pursued was that
alleged by McGuire.18 The government alleged that
Millennium distributed $5 million worth of free pointof-care test cups in exchange for the doctors referring
the cups to Millennium for confirmatory testing. This
was an illegal kickback because, “absent an applicable
statutory exception[, point-of-care] cups had to be sold
at ‘fair market value’ to comply with the Stark Law
and Anti-Kickback Statute.”
The district court erred when it found that “Cunningham’s materials provided the government with
‘sufficient notice to initiate an investigation into [Millennium’s] allegedly fraudulent practices.’” Cunningham, 202 F. Supp. 3d at 206 (quoting Ven-A-Care, 772
F.3d at 938). Mere notice—particularly of a different
fraud than the government chose to pursue—is not
enough. As we made clear in Ven-A-Care, “we must
ask not merely whether the first-filed complaint provides some evidence from which an astute government
official could arguably have been put on notice, but
also whether the first complaint contained all the essential facts of the fraud it alleges.” 772 F.3d at 938
(emphasis added) (internal citation and quotation
marks omitted).
McGuire has established that he was the first to
file a claim alleging the essential facts of Millennium’s
custom profile fraud and point-of-care cup kickback
18

McGuire attached the government’s complaint in intervention to his crossclaim, so it is properly before us. In any event, the
government’s complaint would be subject to judicial notice. See
Zucker, 919 F.3d at 651 n.5 (citing E.I. Du Pont de Nemours &
Co., 791 F.2d at 7 (Breyer, J.)).

27a
scheme. He has also adequately pleaded that the government’s recovery from Millennium constitutes the
“proceeds of the . . . settlement of the claim[s]” he
brought.19 31 U.S.C. § 3730(d)(1).
IV.
We reverse20 and remand for further proceedings
consistent with this opinion.

19
There is no assertion by the government or anyone else that
McGuire did not plead the conduct that formed the basis of the
claims the government ultimately settled. We need not address
the issue decided by the Eighth Circuit in Rille. See 803 F.3d at
374 (remanding for further factual development in a case in
which “[t]he government objected to [the relators’] recovery on the
ground that the relators’ complaint did not plead the conduct that
formed the basis of the claims that the government ultimately
settled,” id. at 371).
20

Our holding moots McGuire’s appeal of the district court’s
denial of his motion to reconsider.

28a
APPENDIX B
________________________________
UNITED STATES DISTRICT COURT
DISTRICT OF MASSACHUSETTS
________________________________
Civil Action No. 09-12209-NMG
UNITED STATES OF AMERICA, et al., ex rel.
ROBERT CUNNINGHAM,
Plaintiffs,
v.
MILLENNIUM LABORATORIES, INC. et al.,
Defendants.
________________________________
Civil Action No. 12-10132-NMG
UNITED STATES OF AMERICA, et al., ex rel.
MARK MAGUIRE,
Plaintiffs,
v.
MILLENNIUM LABORATORIES, INC. et al.,
Defendants.
________________________________
Civil Action No. 12-10631-NMG
UNITED STATES OF AMERICA, et al., ex rel.
RYAN UEHLING,
Plaintiffs,
v.
MILLENNIUM LABORATORIES, INC. et al.,
Defendants.

29a
________________________________
Civil Action No. 13-10825-NMG
UNITED STATES OF AMERICA, et al., ex rel.
OMNI HEALTHCARE, INC. and JOHN DOE,
Plaintiffs,
v.
MILLENNIUM LABORATORIES, INC. et al.,
Defendants.
________________________________
August 19, 2016
________________________________
MEMORANDUM & ORDER
GORTON, J.
Consolidated before this Court are the qui tam actions of six sets of relators against defendant Millennium Laboratories, Inc. (now known as Millennium
Health, LLC) (“Millennium”). After the government
intervened in several of the cases and reached a settlement with Millennium, relator Mark McGuire
(“McGuire”) filed a cross-claim against the other relators seeking a declaratory judgment that he is entitled
to the relators’ share of the settlement money. Pending
before the Court are motions filed by four of the relators to dismiss that cross-claim, a motion to seal certain related documents and a motion to strike certain
documents and statements.
I.

Background

In December, 2009, Robert Cunningham (“Cunningham”), an attorney who had worked as a

30a
compliance officer at a laboratory testing company
that competed with Millennium, filed a lawsuit
against Millennium pursuant to the False Claims Act
(“FCA”), 31 U.S.C. § 3729 et seq. The FCA allows whistleblowers to file lawsuits on behalf of the federal government, known as qui tam actions, exposing fraudulent claims charged. The whistleblower, known as a
“relator”, may recover damages on behalf of the government and receive a portion of those damages himself. FCA lawsuits are required to remain sealed for 60
days, unless the Court permits an extension of that
time, in order to allow the government to investigate
the claims before deciding whether to intervene.
Cunningham’s claim alleged that Millennium had
defrauded the government by submitting claims for
testing that was excessive and medically unnecessary,
despite its certifications to the contrary. Cunningham
also alleged that Millennium caused numerous physicians to submit fraudulent claims to the government.
At the time he filed his complaint and served it on the
government, Cunningham also provided the government with a disclosure statement containing additional information and voluminous source materials to
substantiate his allegations and to assist the government in investigating the alleged fraud.
Cunningham continued to cooperate with the government and to provide additional materials until his
death in December, 2010. His estate then continued
his FCA action by filing an amended complaint in February, 2011. The estate and its attorneys (hereinafter
also referred to as “Cunningham”) also continued to
respond to requests from the government pursuant to
its ongoing investigation and to provide the government with additional materials.

31a
A few days after Cunningham filed its amended
complaint, the time during which the government was
permitted to intervene and keep the case sealed expired. The government entered a notice that it would
not intervene in the case for the time being and later
elected not to intervene at all. The case was unsealed
and subsequently dismissed by the district court. After
an appeal, a partial remand and a second dismissal,
Cunningham’s case is currently on appeal to the First
Circuit for a second time, although that appeal has
been stayed pending the outcome of these proceedings.
In January, 2012 Mark McGuire, a former laboratory director of operations at a medical center, filed
another FCA action against Millennium. McGuire’s
action also alleged that Millennium submitted claims
for medically unnecessary testing and caused physicians to submit fraudulent claims. The government
elected to intervene in McGuire’s case. All told, eight
FCA cases have been filed against Millennium by different relators and the government has chosen to intervene in three.
In October, 2015 the federal government and several intervening states reached a settlement agreement with Millennium (“the Settlement Agreement”)
through which Millennium agreed to pay
$227,000,000, plus interest, in exchange for the government’s forbearance with respect to certain claims.
Those claims (“the Covered Conduct”) were expressly
limited to the period between January 1, 2008 and
May 20, 2015, and were described as:
(1) excessive and unnecessary [urine drug
testing (“UDT”)] ordered by physicians without an individualized assessment of patient
need . . . and

32a
(2) UDT referred by physicians who received
free point-of-care drug testing supplies in violation of the Stark Law, 42 U.S.C. § 1395nn,
and the Anti-Kickback Statute, 42 U.S.C.
§ 1320a-7b(b).
Seven of the eight relators joined in the agreement, which requires them to dismiss their pending
actions with prejudice after post-settlement proceedings have been concluded. The agreement provides
that 15% of the settlement be set aside for the relators
(“the Relator’s Share”), but does not prescribe how the
money is to be apportioned among the relators. Instead, the agreement demurs on that subject and
leaves it to the Court to apportion the 15% if the relators are unable to reach an agreement among themselves.
In October, 2015, after the filing of the settlement,
relator McGuire filed a cross-claim against the other
relators seeking a declaratory judgment that he is entitled to the Relator’s Share. Four of the other relators
subsequently filed motions to dismiss his cross-claim,
which motions are the subject of this memorandum
and order.
II. Cunningham’s Motion to Dismiss
Cunningham moves the Court to dismiss
McGuire’s cross-claim both for lack of subject matter
jurisdiction under Fed. R. Civ. P. 12(b)(1) and for failure to state a claim under Fed. R. Civ. P. 12(b)(6).

33a
A. Motion to Dismiss for Lack of Subject
Matter Jurisdiction
1.

Legal Standard

In opposing a motion to dismiss for lack of subject
matter jurisdiction under Fed. R. Civ. P. 12(b)(1), the
plaintiff bears the burden of establishing that the
Court has jurisdiction. Lujan v. Defenders of Wildlife,
504 U.S. 555, 561 (1992). If the defendant mounts a
“sufficiency challenge”, the court will assess the sufficiency of the plaintiff’s jurisdictional allegations by
construing the complaint liberally, treating all wellpled facts as true and drawing all reasonable inferences in the plaintiff’s favor. Valentin v. Hospital Bella
Vista, 254 F.3d 358, 363 (1st Cir. 2001).
If, however, the defendant advances a “factual
challenge” by controverting the accuracy, rather than
the sufficiency, of the alleged jurisdictional facts, “the
plaintiff’s jurisdictional averments are entitled to no
presumptive weight” and the court will consider the
allegations by both parties and resolve the factual disputes. Id. The court has “broad authority” in conducting the inquiry and can, in its discretion, consider extrinsic evidence in determining its own jurisdiction.
Id. at 363-64.
2.

Analysis
a.

Appropriateness of a Jurisdictional Inquiry

Cunningham asserts that McGuire’s declaratory
judgment cross-claim is jurisdictionally barred because McGuire was not the “first to file” relator in this
set of FCA cases. The “first to file” rule of the FCA
states that

34a
[w]hen a person brings an action under this
subsection, no person other than the Government may intervene or bring a related action
based on the facts underlying the pending action.
31 U.S.C. § 3730(b)(5). The provision precludes the filing of subsequent qui tam cases once a relator has notified the government of a specific fraud, preventing
copycat relators from bringing claims simply to gain a
portion of the relator’s share. See United States ex rel.
Heineman-Guta v. Guidant Corp., 718 F.3d 28, 35 (1st
Cir. 2013). Cunningham avers that because he filed
his FCA action before McGuire filed his, McGuire’s
claims are barred.
The United States Court of Appeals for the First
Circuit (“the First Circuit”) considers the “first to file”
provision to be jurisdictional. United States ex rel. VenA-Care of the Florida Keys, Inc. v. Baxter Healthcare
Corp., 772 F.3d 932, 936 (1st Cir. 2014) [hereinafter
“Ven-A-Care”] (citing United States ex rel. Wilson v.
Bristol-Myers Squibb, Inc., 750 F.3d 111, 117 (1st Cir.
2014)). McGuire offers, however, several reasons why
this Court should not apply that rule as a jurisdictional bar in this case.
First, McGuire argues that the Court should treat
his cross-claim differently because it is a claim for declaratory judgment rather than an affirmative FCA
claim against Millennium. The “first to file” provision
does not, however, apply by its terms only to affirmative FCA claims. Instead, it bars all “related action[s]
based on the facts underlying the pending action.”
McGuire does not explain how his cross-claim, which
by its very nature involves all of the facts underlying

35a
not only his affirmative FCA claim but also the FCA
claims of the other relators, is not a “related action.”
Next, McGuire contends that the “first to file” bar
should not apply because Cunningham’s action is not
a “pending action” for the purposes of 31 U.S.C.
§ 3730(b)(5). He declares that
a final judgment, with full res judicata effect,
has been entered against Cunningham that
conclusively precludes it from receiving any
recovery for its FCA claims against Millennium.
Although Cunningham’s complaint was ultimately dismissed, his case was, nevertheless, still
“pending” at all relevant times. The dismissal had not
yet occurred when McGuire filed his complaint. See
United States ex rel. Bartz v. Ortho-McNeil Pharmaceutical, Inc., 856 F. Supp. 2d 253, 258 (D. Mass. 2012)
(holding that a later-dismissed action is “pending” for
the purposes of § 3730(b)(5) if it was pending when the
second relator brought her claim). Furthermore, Cunningham’s appeal of the dismissal was ongoing when
he entered into the Settlement Agreement. See United
States ex rel. Carter v. Haliburton Co., No. 13-1188,
2014 WL 1767514 (E.D. Va. May 2, 2014) (holding that
a qui tam suit is “pending” when it is on direct review).
Accordingly, McGuire’s second contention is also unavailing.
Finally, McGuire asserts that 28 U.S.C. § 1331
provides the Court with federal question jurisdiction
over his cross-claim because it is a declaratory judgment based upon the FCA, a federal law. See, e.g.,
Franchise Tax Bd. of Cal. v. Construction Laborers Vacation Trust for S. Cal., 463 U.S. 1, 19 (1983). This

36a
argument misses the mark. The first to file provision
serves as an exception to the Court’s jurisdiction. It
operates, therefore, to exclude “related actions” which
would normally fall within the Court’s jurisdiction, including McGuire’s cross-claim.
b.

Materials to be Considered

Because Cunningham disputes the factual accuracy of McGuire’s contention that he was the “first to
file” his FCA claim, Cunningham’s motion to dismiss
constitutes a factual, rather than a sufficiency, challenge. Accordingly, the Court may consider evidence
extrinsic to McGuire’s complaint in resolving the motion. See Valentin, 254 F.3d at 363-64. McGuire does
not dispute the Court’s authority in this regard, but
asserts that the materials Cunningham has provided
for the Court’s consideration are improper.
First, McGuire argues that the Court may consider only the complaints when determining which of
the two relators was the first to file an action detailing
the Covered Conduct. Cunningham does not dispute
that his claim of “first to file” status is based largely
on documents and information he provided the government which are not contained in his complaint. He has
filed those documents with his motion as an appendix
(“the Cunningham Appendix”). McGuire cites a string
of cases in this and other circuits which have referred,
in passing, to the fact that courts compare the relators’
complaints when assessing first to file status. See, e.g.,
Ven-A-Care, 772 F.3d at 937-38. None of those cases
addressed, however, the question of whether documents outside the complaint may also be considered.
Indeed, contrary to McGuire’s contention, the
statute itself provides no basis for such a restriction.

37a
The “first to file” provision broadly bars new actions
that are “related . . . based on the facts underlying the
pending action.” See 31 U.S.C. § 3730(b)(5). It does not
restrict consideration to the complaints but rather focuses more broadly on the factual content of the action
itself. Moreover, the provision pertinent to the requirements for a relator to commence an FCA action (appropriately titled “Actions by private persons”) mandates that
[a] copy of the complaint and written disclosure of substantially all material and information the person possesses shall be served
on the government.
Id. § 3730(b)(2). As discussed in greater detail below,
the Court’s “first to file” analysis focuses on whether
the relator “provided the government sufficient notice
that it was the potential victim of fraud worthy of investigation.” Heineman-Guta, 718 F.3d at 33. Because
written disclosures outside the complaint are a required component of the “notice” that a relator must
provide for the government, the Court’s analysis
would be incomplete if it did not consider such documents.
McGuire attempts to bolster his argument by asserting that the First Circuit’s decision in United
States ex rel. Duxbury v. Ortho Biotech Products, L.P.
bars our consideration of materials extraneous to the
complaint. See 579 F.3d 13 (1st Cir. 2009). Duxbury,
however, states no such general rule. To the contrary,
the Duxbury Court acknowledged that it is appropriate for a Court to consider extraneous materials when
deciding a 12(b)(1) motion based upon the “first to file”
rule. Id. at 33. The Court declined to review a document offered by a relator because that document was

38a
provided to the government after the opposing relator
had filed his complaint. Consequently, the document
was irrelevant to the “first to file” analysis, which examines the sufficiency of the information provided by
the first relator before the second relator files.
All of the materials included in the Cunningham
Appendix except for the last document, Cunningham’s
Third Disclosure Statement, were submitted to the
government before McGuire filed his FCA action.
Duxbury does not, therefore, bar the Court’s consideration of those materials. Because the Third Disclosure
Statement was filed after McGuire’s complaint it cannot, however, support Cunningham’s claim to “first to
file” status. Accordingly, the Court will not consider it.
Finally, McGuire also declares that the Court cannot consider the Cunningham Appendix because the
Court may consult only “materials of evidentiary quality,” Valentin, 254 F.3d at 363, and Cunningham’s Appendix has not been authenticated pursuant to Fed. R.
Evid. 901. Specifically, McGuire complains that Cunningham did not file an accompanying affidavit authenticating the documents in the Appendix. That
problem was remedied, however, when Cunningham
filed a signed and sworn affidavit of Robert A. Griffith
on January 19, 2016 describing the documents and attesting to their authenticity (Docket No. 148). Accordingly, this argument is now moot.
c.

First to File Analysis

Finally, the Court considers the merits of the “first
to file” analysis. In order for a qui tam action that was
filed first to bar a subsequently filed action, it must
provide enough details

39a
to give the government sufficient notice to initiate an investigation into allegedly fraudulent practices.
Heineman-Guta, 718 F.3d at 36-37. Accordingly, a
later-filed action is barred if it states “all the essential
facts of a previously-filed claim” or “the same elements
of a fraud described in an earlier suit.” Duxbury, 579
F.3d at 32. Here, because the parties seek to claim the
Relator’s Share rather than to collect damages
through an affirmative FCA action, the relevant
“fraud” is the Covered Conduct described by the Settlement Agreement.
After considering Cunningham’s complaint, first
amended complaint (which was filed prior to the commencement of McGuire’s action) and the documents in
the Cunningham Appendix which were provided to the
government prior to the filing of McGuire’s complaint,
the Court finds that Cunningham did sufficiently allege the Covered Conduct so as to bar McGuire’s claim.
Cunningham alleged that Millennium caused physicians to order excessive and unnecessary urine drug
testing without an individualized assessment of patient need.
Cunningham explained that Millennium convinced doctors to use its in-office, multi-panel, qualitative screening tests, which screened for eleven commonly tested drugs, to test urine samples for multiple
drugs at the same time. Millennium then convinced
physicians to implement “standing orders” which dictated that urine samples would be sent to Millennium
for quantitative testing to confirm the results of the inoffice screening tests. That confirmation testing was
reflexive, requiring samples to be re-tested for all
drugs, regardless of whether there was any reason a)

40a
to doubt the in-office results or b) to test the patient
for that particular drug. Such testing without an individualized assessment of patient need was wasteful
and contrary to the existing standard of care. Cunningham further alleged that Millennium profited
from billing the government for such excessive drug
testing.
In order to convince doctors to participate in such
a scheme, Cunningham alleged, Millennium encouraged them to bill for the in-office, multi-panel test in a
manner which would garner them reimbursement “far
in excess of the value of the test.” Cunningham asserted that Millennium provided the multi-panel test
kits at a low price (less than $10) and encouraged doctors to bill for miscellaneous clinical tests when they
used the kits rather than for just one multi-panel test.
Such a practice was, according to Cunningham, fraudulent and abusive and a violation of the Anti-Kickback
Statute, 42 U.S.C. § 1320a-7b, and the Stark Law, 42
U.S.C. § 1395nn. Millennium, nevertheless, informed
doctors that it was a proper method of billing.
McGuire correctly points out that Medicare later
revised its reimbursement rules so that physicians
could no longer bill for multiple tests derived from a
multi-panel qualitative test. Consequently, Millennium changed its incentive structure for doctors by
providing the multi-panel test kits for free and encouraging them to bill insurers for the tests. This was improper because doctors were permitted to bill for such
tests only if they had paid Millennium for the test kits.
Accordingly, such conduct also constituted a violation
of the Anti-Kickback Statute and the Stark Law. It is
the latter incentive structure, and not the former,

41a
which is included within the Covered Conduct in the
Settlement Agreement.
McGuire contends that Millennium’s revised incentive structure constitutes “a wholly different fraud”
from the one alleged by Cunningham and, therefore,
Cunningham did not sufficiently allege the Covered
Conduct to claim “first to file” status. Cunningham’s
description of the fraud included, however, all of the
essential elements of the Covered Conduct. He informed the government that Millennium was providing its multi-panel test kits to doctors and encouraging
them to use the test kits to bill in excess of their permissible value. That benefitted the doctors by allowing
them to collect additional revenue from payors. In exchange, Millennium required doctors to send the test
results to Millennium for quantitative confirmation
without regard to the medical necessity of such confirmation testing.
Although the exact method of mis-billing for the
multi-panel tests changed when Medicare revised its
reimbursement rules, Cunningham’s materials provided the government with “sufficient notice to initiate
an investigation into [Millennium’s] allegedly fraudulent practices.” Ven-A-Care, 772 F.3d at 938. Medicare’s billing policies are publicly available documents
and accordingly the government, through its investigation, could have discovered changes in Millennium’s
fraudulent incentive structure caused by those policies. As the First Circuit has noted,
once the government knows the essential
facts of a fraudulent scheme, it has enough information to discover related frauds.

42a
Ven-A-Care, 772 F.3d at 942. Here, Cunningham alleged the “essential facts” of the Covered Conduct, and
therefore his FCA action bars McGuire’s. Cf. Wilson,
750 F.3d at 118 (relator’s action alleging off-label drug
promotion barred by earlier-filed suit alleging similar
scheme involving a different off-label use).
B. Motion to Dismiss for Failure to State a
Claim
1.

Legal Standard

To survive a motion to dismiss for failure to state
a claim under Fed. R. Civ. P. 12(b)(6), a complaint
must contain “sufficient factual matter” to state a
claim for relief that is actionable as a matter of law
and “plausible on its face.” Ashcroft v. Iqbal, 556 U.S.
662, 667 (2009) (quoting Bell Atl. Corp. v. Twombly,
550 U.S. 544, 570 (2007)). When rendering that determination, a court may not look beyond the facts alleged in the complaint, documents incorporated by reference therein and facts susceptible to judicial notice.
Haley v. City of Boston, 657 F.3d 39, 46 (1st Cir. 2011).
2.

Analysis

Cunningham also moves the Court to dismiss
McGuire’s cross-claim for failure to state a claim under
Fed. R. Civ. P. 12(b)(6). He proposes no new arguments, but rather requests that the Court consider his
“first to file” arguments under the 12(b)(6) standard.
As explained above, however, Cunningham’s arguments rely extensively on documents outside of
McGuire’s complaint. Without such support, those arguments fail. McGuire’s complaint states a plausible
claim that he is the “first to file” relator although, as
explained above, the Court finds that once

43a
Cunningham’s submissions are considered it becomes
apparent that McGuire is not. Accordingly, the motion
to dismiss on 12(b)(6) grounds will be denied.
III. The Other Relators’ Motions to Dismiss
Three other sets of relators, Ryan Ueling, Omni
Health Care and Amadeo Pesce, filed motions to dismiss McGuire’s cross-claim. Each submitted a nearly
identical memorandum of law arguing that the crossclaim should be dismissed on three grounds: 1) under
Fed. R. Civ. P. 12(b)(1) because McGuire was not the
first to file vis-à-vis Cunningham, 2) under Fed. R. Civ.
P. 12(b)(1) because McGuire was not the first to file
vis-à-vis the moving relator and 3) under Fed. R. Civ.
P. 12(b)(6). Because the Court has found that McGuire
was not first to file vis-à-vis Cunningham, the motions
will be allowed, in part. Given that McGuire’s crossclaim will be dismissed on those grounds the Court
need not, however, address the relators’ other arguments. Accordingly, the motions to dismiss of the subject relators will be denied as moot to the extent they
rely on the second and third grounds.
IV. Cunningham’s Motion to Seal the Cunningham Appendix
There is a well-established presumption of public
access to judicial documents. Fed. Trade Comm’n v.
Standard Fin. Mgmt. Corp., 830 F.2d 404, 408 (1st Cir.
1987). Non-disclosure of judicial records can be justified for “only the most compelling reasons.” Id. District
courts therefore “must carefully balance the competing interests that are at stake in the particular case.”
Siedle v. Putnam Investments, Inc., 147 F.3d 7, 10 (1st
Cir. 1998).

44a
What constitutes sufficient cause depends on the
nature of the records the parties seek to impound.
Bradford & Bigelow, Inc. v. Richardson, No. 13-cv11025-RWZ, 2015 WL 3819234 at *2 (D. Mass. June
19, 2015). In civil cases, interests which courts have
found sufficient to justify impoundment include trade
secrets, confidential business information, information covered by a recognized privilege such as the
attorney-client privilege and information required by
statute to be sealed. See id. at *2; Baxter Int’l, Inc. v.
Abbott Laboratories, 297 F.3d 544, 546 (7th Cir. 2002).
Good cause must be established “on a document-bydocument basis.” Bradford & Bigelow, 2015 WL
3819234 at *1.
Cunningham moves the Court to seal both his Appendix and his memorandum in support of his motion
to dismiss, which relies extensively on materials from
the Appendix. As grounds, he avers that both constitute opinion work product from his FCA action against
Millennium and they are, therefore, subject to absolute or near-absolute immunity from discovery. See,
e.g., Caremark, Inc. v. Affiliated Computer Services,
Inc., 195 F.R.D. 610, 616 (N.D. Ill. 2000). In response,
McGuire does not dispute that the work product privilege applies but instead argues that Cunningham has
waived work product protection by placing those documents directly at issue in this dispute. See, e.g., Columbia Data Products, Inc. v. Autonomy Corp., No. 11cv-12077-NMG, 2012 WL 6212898, at *16 (D. Mass.
Dec. 12, 2012).
The Court agrees with McGuire that Cunningham
has put the documents in issue in this case. This situation differs from the context in which the work product privilege is typically invoked, however, because

45a
Cunningham is not attempting to conceal the documents from McGuire. Instead, by sealing the documents, Cunningham seeks to ensure that no third person obtains access to the documents. Accordingly,
Cunningham does not attempt to use his disclosures
“as both a sword and a shield” by invoking them
against while withholding them from McGuire. See In
re Keeper of Records (Grand Jury Subpoena Addressed
to XYZ Corp.), 348 F.3d 16, 24 (1st Cir. 2003).
The Court agrees with McGuire that Cunningham
has not made the requisite showing of good cause, on
a document-by-document basis, as to why the presumption of public disclosure should be overruled. Although Cunningham’s disclosures were clearly prepared “in anticipation of litigation,” Fed. R. Civ. P.
26(b)(3), that litigation has ended. The government
has negotiated a Settlement Agreement with Millennium and, upon execution of that agreement, Cunningham agreed to dismiss his FCA action against
Millennium with prejudice.
Cunningham has provided no reason why ongoing
secrecy is warranted, especially given the considerable
resources which must be expended by the Court to process and maintain sealed documents. Dunkin Donuts
Franchised Restaurants, LLC v. Agawam Donuts, Inc.,
No. 07-cv-11444-RWZ, 2008 WL 427290, at *1 (D.
Mass. Feb. 13, 2008). The motion to seal will, therefore, be denied, without prejudice.
V. McGuire’s Motion to Strike the Cunningham
Appendix
Finally, McGuire moves to strike the Cunningham Appendix because it lacks evidentiary foundation. He also asks the Court to strike two statements

46a
in Cunningham’s memorandum of law which he
claims are false.
McGuire first declares that the Court should
strike Cunningham’s Appendix because the Court may
not consider evidence outside the complaints when determining the “first to file” status of a relator. He also
asserts that the Appendix should be stricken because
Cunningham did not file an accompanying affidavit
authenticating the documents in the Appendix. As explained above, neither of those arguments is availing
and, therefore, the Court will not strike the Appendix.
McGuire further contends that the Court should
strike two statements in Cunningham’s memorandum
of law which he contends are false. The first statement, on page 4 of the memorandum, proclaims that
“[t]he Government never affirmatively declined Cunningham’s case.” McGuire argues that this statement
is false because on June 28, 2011 the United States
filed a notice in Cunningham’s case stating that it was
definitively “declining to intervene in this action.” In
response, Cunningham has retracted the statement.
Consequently, it is no longer before the Court and it
was not considered during the Court’s analysis of the
other pending motions.
The second disputed statement, also on page 4,
avers that
[i]t is the culmination of the ongoing investigation Cunningham’s filings initiated that resulted in the $227 million settlement now before the Court.
That statement summarizes Cunningham’s position
that he was the first relator to file his complaint and
to provide the government with the notice it needed to

47a
commence the investigation which lead to the Settlement Agreement. Such argument about the central issue in Cunningham’s motion to dismiss is neither impermissible nor improper. McGuire has provided no
evidence to the contrary that the government ceased
to investigate the scheme alleged by Cunningham and
then, separately at a later date, commenced the investigation which lead to the Settlement Agreement
based solely upon the information provided by
McGuire. Accordingly, the Court finds no reason to
strike the statement and McGuire’s motion will be denied.
ORDER
For the foregoing reasons,
1.

Cunningham’s motion to dismiss (Docket No. 117)
is, with respect to Fed. R. Civ. P. 12(b)(1),
ALLOWED, but otherwise DENIED,

2.

Uehling’s motion to dismiss (Docket No. 120) is,
with respect to Fed. R. Civ. P. 12(b)(1) vis-à-vis
Cunningham’s first to file status, ALLOWED, but
otherwise DENIED,

3.

Omni’s motion to dismiss (Docket No. 123) is, with
respect to Fed. R. Civ. P. 12(b)(1) vis-à-vis Cunningham’s first to file status, ALLOWED, but
otherwise DENIED,

4.

Pesce’s motion to dismiss (Docket No. 131) with
respect to Fed. R. Civ. P. 12(b)(1) vis-à-vis Cunningham’s first to file status, ALLOWED, but
otherwise DENIED,

5.

Cunningham’s motion to seal (Docket No. 119) is
DENIED without prejudice and

48a
6.

McGuire’s motion to strike (Docket No. 142) is
DENIED.

So ordered.
/s/ Nathaniel M. Gorton
Nathaniel M. Gorton
United States District Judge
Dated August 19, 2016

49a
APPENDIX C
________________________________
UNITED STATES DISTRICT COURT
DISTRICT OF MASSACHUSETTS
________________________________
Civil Action No. 09-12209-NMG
UNITED STATES OF AMERICA, et al., ex rel.
ROBERT CUNNINGHAM,
Plaintiffs,
v.
MILLENNIUM LABORATORIES, INC. et al.,
Defendants.
________________________________
Civil Action No. 12-10132-NMG
UNITED STATES OF AMERICA, et al., ex rel.
MARK MAGUIRE,
Plaintiffs,
v.
MILLENNIUM LABORATORIES, INC. et al.,
Defendants.
________________________________
Civil Action No. 12-10631-NMG
UNITED STATES OF AMERICA, et al., ex rel.
RYAN UEHLING,
Plaintiffs,
v.
MILLENNIUM LABORATORIES, INC. et al.,
Defendants.

50a
________________________________
Civil Action No. 13-10825-NMG
UNITED STATES OF AMERICA, et al., ex rel.
OMNI HEALTHCARE, INC. and JOHN DOE,
Plaintiffs,
v.
MILLENNIUM LABORATORIES, INC. et al.,
Defendants.
________________________________
November 28, 2016
________________________________
ORDER
GORTON, J.
Relator Mark McGuire moves this Court to reconsider its Memorandum and Order (“M&O”) of August
19, 2016 (Docket No. 213) dismissing his cross-claim.
In Sections II and III of the memorandum in support of his motion, McGuire contends that the Court
committed “manifest error” in its holdings in the
M&O. His contentions do not, however, add anything
new to the arguments he already made in his previous
memoranda. McGuire is not entitled to reconsideration on such grounds. See Palmer v. Champion Mortg.,
465 F.3d 24, 30 (1st Cir. 2006).
McGuire also proffers several arguments in the
remaining sections of his memorandum that were not
raised in his earlier briefings. McGuire has thus
waived those arguments. See Cochran v. Quest Software, Inc., 328 F.3d 1, 11 (1st Cir. 2003).

51a
Accordingly , the motion of relator Mark McGuire
for reconsideration (Docket No . 218) is DENIED.
So ordered.
/s/ Nathaniel M. Gorton
Nathaniel M. Gorton
United States District Judge
Dated November 28, 2016

52a
APPENDIX D
________________________________
UNITED STATES COURT OF APPEALS
FOR THE FIRST CIRCUIT
________________________________
No. 17-1106
UNITED STATES OF AMERICA; STATE OF
CALIFORNIA; STATE OF COLORADO; STATE OF
CONNECTICUT; STATE OF DELAWARE;
DISTRICT OF COLUMBIA; STATE OF FLORIDA;
STATE OF GEORGIA; STATE OF HAWAII; STATE
OF ILLINOIS; STATE OF INDIANA; STATE OF
IOWA; STATE OF LOUISIANA; STATE OF
MARYLAND; COMMONWEALTH OF
MASSACHUSETTS; STATE OF MICHIGAN; STATE
OF MONTANA; STATE OF NEVADA; STATE OF
NEW JERSEY; STATE OF NEW MEXICO; STATE
OF NEW YORK; STATE OF NORTH CAROLINA;
STATE OF OKLAHOMA; STATE OF RHODE
ISLAND; STATE OF TENNESSEE; STATE OF
TEXAS; COMMONWEALTH OF VIRGINIA; and
STATE OF WISCONSIN, ex rel. MARK MCGUIRE,
WENDY JOHNSON, and RYAN UEHLING,
Plaintiffs,
v.
MILLENNIUM LABORATORIES, INC.,
MILLENNIUM LABORATORIES OF CALIFORNIA,
INC.; JAMES SLATTERY; HOWARD APPEL,
Defendants.
________________________________

53a
MARK MCGUIRE,
Cross-Claimant, Appellant,
v.
ESTATE OF ROBERT CUNNINGHAM; RYAN
UEHLING; OMNI HEALTHCARE INC.; AMADEO
PESCE; JOHN DOE a/k/a CRAIG DELIGDISH,
Cross-Defendants, Appellees.
________________________________
May 31, 2019
________________________________
Before
Howard, Chief Judge,
Torruella, Lynch, Thompson,
Kayatta and Barron,* Circuit Judges.
________________________________
ORDER OF COURT
The petition for rehearing having been denied by
the panel of judges who decided the case, and the petition for rehearing en banc having been submitted to
the active judges of this court and a majority of the
judges not having voted that the case be heard en
banc, it is ordered that the petition for rehearing and
the petition for rehearing en banc be denied.
By the Court:
Maria R. Hamilton, Clerk

*

Judge Barron is recused and did not participate in the consideration of this matter.

